2311 Douglas Street
Omaha, Nebraska 68102-1214

~OCKLE

E-Mail Address:

~ L e g a l Briefs
.

contact@ cocklelegalbriefs.com

Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

No. 19-577
TAMRA L. LAMPRELL,
Petitioner,
V.

REX E. STUCKEY,
Respondent.
CERTIFICATE OF COMPLIANCE

As . required by Supreme Court Rule 33.l(h), I certify that the BRIEF OF BATTERED
WOMEN' S JUSTICE PROJECT AS AMICUS CURIAE IN SUPPORT OF THE PETITIONER in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.l(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5967 words, excluding the parts that are exempted by Supreme Court Rule
33.l(d), as needed.

Subscribed and sworn to before me this 3rd day of December, 2019.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

PAtRICIA BILLOTTE

General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39087

